No..

IN THE

SUPREME COURT OF THE UNITED STATES

Jeanette 5.R. Lipinski—PETITIONER
VS.
Yolanda Castaneda et al,— RESPONDENT(S)

PROOF OF SERVICE
1,1eaneUeS.R. IJpinskL do swea'r or declare dial on tins date, August 12.202L as

required by Supreme Court Rule 291 have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party's counsel, and on every other
person required to be served by email.

Jeanette S. R, Lipinski
14121 S, Green Bay Ave.
Burnham, IT, 60633
myhealingjesnsC^outloQk.com
773-240-7701

1 of 2

CERTIFICATE OF SERVICE
I hereby certify that On AUGUST 12,2021,1 served one copy of the foregoing Brief by
email to entities who have filed an appearance to the addresses noted below..

a

Jeanette S. K. LSpinsfci

The names and addresses of those served are as follows:
/s/Nicholas JL Richardson
nrichardson^pattonryan.com
Fatten & Ryan, LLC
Nicholas E. Richardson
330 N. Wabash Avenue, Ste. 3#00
Chicago, IL 60611312-447-7267
/s/Jerome R. Weiizel
j wei tzel^'kwm I a w yers.com
Kowicky YVeilzal McGrath F.C.
Jerome R. Weifzel
55 W. Monme St. Sie. 2400
Chicago, Illinois 60603
312-6964)900
NOTICE OF FILING
I declare under penally of perjury that the foregoing is true and correct. Executed on
August 12, 2021. in the year of our Lord.
Jeanette 5- R. Upmski

2 of 2

No,

IN THE
SUPREME COURT OF THE UNITED STATES

Jeanette S.R. Lipinski— PETITIONER

vs.
Yolanda Castaneda et al,— RESPONDENT(S)

PROOF OF SERVICE
1. TenneUcS.R. UpinskL do swear or declare that On this date; August 12.2021 as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERlSand PETITION FOR A WRIT OF CERTIORARI
on each party to 11k* above proceeding or that party's counsel,-and on every other
person required to be served by email
^3^

Jeanette S. R. Lipinski
14121S, Green Bay Ave.
Burnham# IT, 60633
myheallngjesus^ouiloQk.eom
773-240-7701

1 of 2

CERTIFICATE OF SERVICE
1 hereby certify that on AUGUST 12,2021,1 served one copy of the foregoing Brief by
•email to entities who have filed an appearance to the addresses noted below*.

jeanetieS. R. Upinski
The names and addresses of those served are as follow:
/s/NieholnsE Richardson
nrichardsonttTpattonryan.com
Patton & Ryan, LLC
Nicholas E Rich 3rd son
330 N. Wabash Avenue, Ste* 3800
Chicago, IL 60611
312-147-7267
/s/jeromc* R. Wdizel
j wei tzui^kuhn la wyers.com
Ko/,acky Weitv.ol McGrath P.C.
Jerome R, Weitzel
55 W, MonmeSi. file. 2400
Chicago, Illinois 60603
312-$9£0900
NOTICE OF FILING
I declare under penalty of perjury that the foregoing' is true and correct, Etfooitcd on
August 12,2021* in the year of our Lord,
Jeanette 5. R. Liptnski

2 of 2

